U. S. Department of Agriculture

 Office of Inspector General

         Audit Report




     Food and Nutrition Service
Child and Adult Care Food Program
       Quality of Audit Work
California Department of Education




                 Audit Report No.
                 27601-9-SF
                 August 1999
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                       Western Region - Audit
                                    600 Harrison Street, Suite 225
                                San Francisco, California 94107-1370
                               TEL: 415-744-2851 FAX: 415-744-2871



DATE:        August 5, 1999

REPLY TO
ATTN OF: 27601-9-SF

SUBJECT:     Child and Adult Care Food Program
             Quality of Audit Work
             California Department of Education

TO:          Allen Ng
             Regional Administrator
             Western Region
             Food and Nutrition Service

ATTN:        James Nordin
             Director
             Financial Management

This report presents the results of our audit of the Quality of Audit Work performed by the
California Department of Education during reviews of the Child and Adult Care Food
Program. Your written response to the draft report is included as exhibit C to the report.
For acceptance of your management decisions on the report’s recommendations, please
provide the information described in the OIG Position sections of the report.

In accordance with Departmental Regulations 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of these recommendations. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a
maximum of 6 months from report issuance.

The Office of the Chief Financial Officer (OCFO), U.S. Department of Agriculture, has
responsibility for monitoring and tracking final action for the findings and
recommendations. Follow your internal agency procedures in forwarding final action
correspondence to OCFO.

We appreciate the cooperation and assistance provided by your audit staff during our
audit.




SAM W. CURRIE
Regional Inspector General
 for Audit
         EXECUTIVE SUMMARY
     FOOD AND NUTRITION SERVICE
CHILD AND ADULT CARE FOOD PROGRAM
       QUALITY OF AUDIT WORK
CALIFORNIA DEPARTMENT OF EDUCATION
     AUDIT REPORT NO. 27601-9-SF


                                This is the third State-level audit report
 PURPOSE                        issued as part of our audit of the Child
                                and Adult Care Food Program
                                (CACFP) in California. The first report
  summarized the serious problems disclosed in our audits of CACFP
  sponsors in California and evaluated why the California Department
  of Education’s (CDE) oversight function had not recognized these
  problems. The second report discussed the problems we found in
  the way CDE used Federal funds that were intended to provide
  audits of CACFP sponsors in California. In this, the third report, we
  evaluated the quality of audits of CACFP sponsors administered by
  CDE.

  Federal regulations require a State agency to provide sufficient
  personnel to administer the program. The administration of the
  CACFP includes conducting audits and administrative reviews of
  sponsors, centers, and providers participating in the program. In
  California, the Food and Nutrition Service (FNS) Western Regional
  Office administers the CACFP through an agreement with CDE.
  Within CDE, the audits are conducted by the External Audit Unit.

  California has the largest CACFP program in the Nation. The U. S.
  Department of Agriculture (USDA) annually provides to CDE
  approximately $16.9 million to administer the CACFP.

  As of April 12, 1999, we have also issued seven audit reports on
  individual sponsors participating in the CACFP in California. We
  have two additional sponsor reports in process.




                           -i-
                                            We concluded that sponsor audits
  RESULTS IN BRIEF                          were not performed and completed in
                                            a timely manner and that deficiencies
                                            in the audit process affected the
           quality of the audit work.

           The CDE did not complete all required program-specific CACFP
           audits in a timely manner.         Managers routinely left audits
           unassigned. Since FY 1994-1995, the number of uncompleted
           audits has steadily grown, rising to 77 percent of the total required
           audits in FY 1996-1997. For those audits that were completed,
           including CPA audits performed under contract, the audit process
           showed several deficiencies:

              CDE audits did not follow Government auditing standards.
              Auditors did not pursue material discrepancies, and their
              workpapers did not adequately support their conclusions.

              The quality control system for CPA audits was deficient. Reviews
              of CPA audits did not examine the CPAs’ workpapers for
              sufficiency. Workpapers for two of the five CPA audits we
              selected for review showed substandard work.

                  Resolution of audit findings was inadequate. Actions were
                  taken only on monetary findings and audit files were closed
                  once these actions were implemented.

           In our opinion, the substandard audits, a deficient quality control
           system, and inadequate resolution of audit findings contributed to
           significant program abuses by the sponsors. All 10 of the sponsors
           we reviewed in California were seriously deficient in their operations.
           Seven have been or are being investigated for program fraud. To
           date, 4 of the 10 sponsors have been terminated from the program.
           Details of these audits are presented in audit reports issued for each
           sponsor and are summarized in our report of CDE’s oversight of
           CACFP sponsors (audit report 27601-6-SF).

                                    We recommend that FNS require CDE
KEY   RECOMMENDATIONS               to implement a system to ensure that
                                    audits are completed and
                                    discrepancies resolved in a timely
         manner. CDE should also implement a quality control process to
         ensure that audits meet Government auditing standards.



                                   - ii -
                                In its July 27, 1999, written response
AGENCY POSITION                 to the official draft report, FNS agreed
                                with our audit results and
                                recommendations. The response is
    incorporated, along with our position, in the Findings and
    Recommendations section of this report. The full text of FNS’
    response is included as exhibit C.




                             - iii -
TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

     SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3




FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 5

I.       SPONSOR AUDITS WERE NOT PERFORMED AND COMPLETED
         IN A TIMELY MANNER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

         Finding No. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

II.DEFICIENCIES IN THE AUDIT PROCESS AFFECTED THE
       QUALITY OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         Finding No. 2 - CDE Audits Did Not Meet Government
                         Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

         Finding No. 3 - Quality Control System Over CPA Audits
                         Was Deficient . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




                                                      - iv -
    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

    Finding No. 4 - Audit Followup Was Inadequate . . . . . . . . . . . . . . . . . . 32

    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34


EXHIBITS
    A-      LOCATIONS VISITED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

    B-      CDE AUDIT DEFICIENCIES . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

    C-      FOOD AND NUTRITION SERVICES’ WRITTEN RESPONSE TO THE
            DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4 0



FIGURES
    1 - Number of Audits Completed (CACFP) . . . . . . . . . . . . . . . . . . . . . . . 7

    2 - Number of Audits Not Completed (CACFP) by Assignment . . . . . . . . . 8

    3 - Authorized and Expended Audit Funds . . . . . . . . . . . . . . . . . . . . . . . 9




                                             -v-
                          INTRODUCTION


                                          The Child and Adult Care Food
         BACKGROUND                       Program (CACFP) is designed to
                                          ensure that children and senior citizens
                                          in day care facilities receive nutritious
           meals. Program funding nationwide for fiscal year 1996 was
           $1.58 billion. For fiscal year 1997, the appropriation was increased
           by about 10 percent to $1.74 billion.

             The program is administered at the Federal level by the Food and
             Nutrition Service (FNS) and at the State level by a State agency,
             except in Virginia, where it is directly administered by FNS. State
             agencies administer their programs through public or nonprofit
             sponsoring organizations which act as a liaison between the State
             agency and participating day care facilities. Sponsors are ultimately
             responsible for program operations in those facilities.

             Day care facilities participating in the program receive reimbursement
             for meals meeting specified nutritional requirements. Facilities
             eligible to participate include day care homes (homes) or child care
             centers (centers). A home is a day care facility located in a private
             residence. The operator of the home is referred to as the "provider."
             A child care center is operated by a public or private nonprofit
             organization, is licensed to provide child care, and primarily serves
             pre-school children. Homes and centers must be licensed by a State
             or local licensing authority.

             Under Title 7 Code of Federal Regulations (CFR) 226.4(h), funding
             is authorized to States specifically for the purpose of conducting
             audits and administrative reviews of institutions. These funds are
             designated to pay the cost of required organizationwide or program-
             specific audits of institutions. Title 7 CFR 226.6(l) also specifies that
             State agencies perform administrative reviews of sponsors on a
             periodic basis.

             CDE has the responsibility to monitor the CACFP on behalf of FNS.
             Within CDE, the External Audits Unit, Field Services Unit, and
             Programs Unit are all involved in the monitoring process. The
             External Audit Unit conducts audits to determine sponsor’s



USDA/OIG-A/27601-9-SF                                                         Page 1
                      compliance with program requirements; the Field Services Unit
                      performs administrative reviews to verify the sponsor’s latest meal
                      claim reimbursement and review the most current month of
                      operations; and the Programs Unit interacts with sponsors on a daily
                      basis, provides technical assistance, and has the authority to take
                      administrative action against a sponsor.

                      CDE also reviews independent audits of sponsors conducted by CPA
                      firms in accordance with the Office of Management and Budget
                      Circulars A-133 and A-128.

                      Administrative reviews and audits conducted by CDE examine some
                      of the same program compliance areas. An administrative review
                      evaluates eligibility and meal requirement compliance. However, an
                      audit is performed in accordance with Government auditing
                      standards (GAS) and is much larger in scope than an administrative
                      review.

                      The funding to each State agency for a fiscal year is based on 2
                      percent of the State’s CACFP reimbursement (excluding State
                      administrative expense funds) provided to institutions during the
                      second preceding fiscal year.1 FNS grants these audit funds to
                      defray the expense of conducting audits and administrative reviews.
                      In fiscal year 1997, $17.1 million of 2 percent funds were expended
                      nationwide. Of that total, approximately $2.4 million was expended
                      by the California Department of Education (CDE).

                                                  Our audit objectives were to (1)
                  OBJECTIVES                      determine whether the quality of audits
                                                  of sponsoring institutions are sufficient
                                                  to prevent, identify, and correct the
                    types of abuses found during our audits; and (2) determine why
                    funds authorized for audits and reviews remain unexpended at fiscal
                    year end in light of the weaknesses identified by our prior audits of
                    sponsors.




1
    Effective October 1, 1998, Public Law 105-336 reduced this amount to 1.5 percent.



USDA/OIG-A/27601-9-SF                                                                   Page 2
                                          We judgmentally selected for
             SCOPE                        examination audits conducted by CDE
                                          during fiscal years 1996 and 1997.
                                          Based on our analysis, we expanded
             our examination to include five audits performed by CDE and five
             audits of sponsors performed by CPA’s.

             The five audits performed by CDE which we reviewed were Aladdin
             Child Care Services, CF Services, Crossroads Child Care Services,
             Friends Educational Child Care Services, and Monterey Bay Agency.
             The five audits performed by CPAs which we selected for review
             were Children’s Spectrum, Community Business Improvement
             Association, FRAMAX, Pacific Enrichment Incorporated, and Pacific
             Asian American Family Day Care.

             Audit work was performed from October 1997 through November
             1998 at the FNS Western Regional Office in San Francisco,
             California; at the CDE in Sacramento, California; and at certified
             public accountant offices in Los Angeles, Modesto, and Beverly Hills,
             California. We also interviewed officials at the Bureau of State
             Audits, Sacramento, California (see exhibit A for a listing of audit
             sites).

             We judgmentally selected CDE audit reports for five sponsors to
             determine if CDE complied with audit requirements and issued its
             reports in a timely manner.

             The audit was conducted in accordance with the U.S. General
             Accounting Offices’ (GAO) "Government Auditing Standards (1994
             Revision)."

                                          To accomplish our objectives and
         METHODOLOGY                      support our findings, we performed the
                                          following steps:


                At the FNS Western Regional Office, we reviewed (1) procedures
                and guidance provided to CDE, (2) Office of Management and
                Budget (OMB) Circular A-128 audits to identify previous issues,
                and (3) management evaluations to determine if FNS adequately
                monitored CDE expenditures and followed up on reported
                deficiencies.




USDA/OIG-A/27601-9-SF                                                     Page 3
                At the CDE, we reviewed yearend financial reports and
                determined the appropriateness of 2 percent fund expenditures.
                We sampled personnel costs and other administrative costs to
                determine if they were allowable and supportable.

                We examined audit reports and workpapers to determine if audits
                were conducted in accordance with GAO "Government Auditing
                Standards (1994 Revision)."

                We compiled a data base of the audits that were performed for
                program years 1994 through 1997. We performed an analysis of
                this information to determine if the audits were completed and
                issued in a timely manner.

                We interviewed officials at the Bureau of State Audits to
                determine if it performed any audits of State agency monitoring.
                We also reviewed California’s Single Audit Report for the period
                of 1992 through 1996.

                At the offices of certified public accountants, we examined audit
                reports and workpapers to determine if they were conducted in
                accordance with GAO "Government Auditing Standards (1994
                Revision)."




USDA/OIG-A/27601-9-SF                                                    Page 4
              FINDINGS AND RECOMMENDATIONS


 I.     SPONSOR AUDITS WERE NOT                                    PERFORMED     AND
        COMPLETED IN A TIMELY MANNER


                                               For program years 1994-1995, 1995-
               FINDING NO. 1                   1996 and 1996-1997, required
                                               program-specific CACFP audits were
                                               not performed or completed in a timely
                  manner. CDE had an inadequate system to track its audits, and
                  auditors who could have performed program-specific CACFP audits
                  were frequently reassigned to complete Child Development Division
                  audits (CDD). As a result, CDE did not meet its CACFP oversight
                  requirements.

                    For effective program oversight, regulations require independent
                    audits at the sponsor level that are conducted in accordance with the
                    Office of Management and Budget Circulars A-133 and A-1282.
                    Prior to June 30, 1996, OMB Circular A-133 required that
                    subrecipients who received Federal awards totaling $25,000 or more
                    obtain an audit. For audits of fiscal years beginning after June 30,
                    1996, the audit threshold was raised to $300,000. The audits must
                    be performed at least biennially and must cover each year’s
                    activities.

                    Regulations also state that "the audit report shall be due within 30
                    days after the completion of the audit. The audit should be
                    completed and the report submitted no later than 13 months after the
                    end of the recipient’s fiscal year unless a longer period is agreed to
                    with the cognizant or oversight agency."3 Additionally, Government




   2
       7 CFR 226.8(a), dated January 1, 1995.
   3
       OMB Circular A-133, paragraph 15(h), dated March 8, 1990.



USDA/OIG-A/27601-9-SF                                                             Page 5
                    auditing standards state, "... audit reports should be distributed in a
                    timely manner to officials interested in the results."4

                    CDE has overall responsibility for ensuring that all required program-
                    specific CACFP audits are properly performed in accordance with
                    regulatory requirements. The staff is also responsible for ensuring
                    that all audits meet applicable standards, and for tracking audit
                    findings and recommendations to ensure corrective actions are taken
                    (questioned costs are recovered, internal control weaknesses are
                    corrected, etc.).

                    FNS grants audit funds to defray the expense of conducting audits
                    and administrative reviews. These funds total 2 percent of the
                    State’s program expenditures. FNS has stated that the purpose for
                    the allocation of 2-percent funds is "to complete the state’s
                    requirement to conduct and review audits required under OMB
                    Circular A-133" and that "the state’s utmost priority must be to
                    complete its audit workload."5

                    A total of 56 required program-specific CACFP audits were to be
                    performed for the 1996-1997 program year. However, we found no
                    evidence that audits were completed for 43 of these sponsors, or 77
                    percent. Similarly, a total of 118 required program-specific CACFP
                    audits were to be performed for the 1995-1996 program year, but we
                    found no evidence that audits were completed for 78 of these
                    sponsors, or 66 percent. And a total of 122 required program-specific
                    CACFP audits were to be performed for the 1994-1995 program
                    year, with no evidence that audits were completed for 68 of these
                    sponsors, or 56 percent (see figure 1).




    4
      Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 5.33.
    5
      October 14, 1998, letter from FNS Western Region to all Western Region State Child Nutrition
Program Directors.



USDA/OIG-A/27601-9-SF                                                                       Page 6
               Program       Required             Required           Percent
                 Year        Program-         Program-Specific      Completed
                             Specific          CACFP Audits
                           CACFP Audits


               1996-97            56                  13               23%
               1995-96           118                  40               34%
               1994-95           122                  54               44%
             Figure 1

             The audit manager told us he assigned some of the required CACFP
             program-specific audits to his staff. Required audits not assigned to
             audit staff were to be completed by a CPA. We determined that 31
             out of 43 audits that were not completed were never assigned by the
             audit manager to be performed by CDE staff or a CPA for the 1996-
             1997 program year. For the 1995-1996 program year, 48 out of 78
             audits not completed were also never assigned to CDE audit staff or
             a CPA for completion. Additionally, in the 1994-1995 program year,
             61 out of 68 audits were never assigned for completion (see figure
             2).




USDA/OIG-A/27601-9-SF                                                     Page 7
             Figure 2


             We found no evidence that any of these unassigned sponsors had
             an audit during the 3-year time period. Federal funds paid to these
             sponsors amounted to $24.6 million in 1996-1997, $1.9 million in
             1995-1996, and $7.8 million in 1994-1995.

             For the 1994-1995 and 1996-1997 program years, CDE audit staff
             were not assigned to complete any CACFP audits. For the
             1995-1996 program year, the CDE audit staff were assigned 20
             audits. We determined CDE completed only one audit that year.
             This audit was the Aladdin report, which we determined did not meet
             Government auditing standards (see Finding No. 2).

             Also, CDE did not always complete its CACFP audits including CPA
             contracted audits within the 13-month timeframe. OMB Circular A-
             133 states that the audit shall be completed 30 days after the receipt
             of the audit report, or 13 months after the end of the audit period.

             FNS paid CDE about $10.1 million for the completion of audits of day
             care home sponsors, child care centers, and adult care centers
             during this 3-year period. However, over $3 million (30 percent) was
             not expended and could have been utilized to conduct or contract for
             the audits of sponsors which had not been completed (see figure 3).




USDA/OIG-A/27601-9-SF                                                      Page 8
                                 Audit Funds
                                                           Remaining
                FY        Authorized       Expended                       Percent
                                                            Balance
                1998     $ 3,580,139      $2,542,189       $1,037,950    29%
                1997     $ 3,374,849      $2,379,399       $ 995,450     29%
                1996     $ 3,176,713      $2,171,874       $1,004,839    32%
               TOTAL     $10,101,701      $7,080,913       $3,020,788    30%
             Figure 3

             CDE’s explanation for the underutilization of funds was that the funds
             could not be used to hire any new auditors, due to a lengthy hiring
             process. Additionally, CDE could not use the funds for the purchase
             of needed computers and office equipment. CDE officials believed
             that the addition of six new audit positions on July 1, 1997, and the
             submission of budget change proposals (in conjunction with the CDD
             audits) for six more positions would improve program monitoring
             operations.

             CDE’s failure to complete CACFP audits in a timely manner has
             been reported before. OIG reported on the backlog of CACFP audits
             in its April 1998 Management Alert and FNS commented on the large
             backlog of unreviewed CPA audits in its March 1995 Management
             Evaluation. Also, the California Bureau of State Audits (BSA)
             reported for the fiscal year ended June 30, 1995, that CDE lacked
             a tracking system to monitor the audit reports for the nutrition
             programs that it monitored.

             In the FNS Regional Office’s July 1998 Management Evaluation,
             FNS reported that 51 percent of CACFP audits had a duration of
             over 13 months. FNS also reported on the large backlog of
             unreviewed CPA audits and on an ineffective tracking system.

             CDE assured both the BSA and FNS that it had taken steps to
             correct these conditions. In it’s response to the 1998 Management
             Evaluation, CDE stated that it developed a plan to complete all
             outstanding audits by January 31, 1999, and will complete all 1996-
             1997 audits according to the new requirements in OMB Circular A-
             133. CDE also stated that the External Audit Unit had completed
             fieldwork on 14 out of the 20 required 1995-1996 CACFP audits.
             After completion of an internal review and approval process, the



USDA/OIG-A/27601-9-SF                                                      Page 9
             External Audit Unit planned to issue draft reports to agencies in
             September 1998. However, during fieldwork conducted in November
             1998, we found that these conditions had not been corrected.

             CDE officials told us that audits were not completed or performed in
             a timely manner because management made a commitment to
             reduce the backlog of CDD audits. Auditors were reassigned from
             various nutrition program audits to assist in this endeavor. By
             shifting auditors to the CDD audits, CDE did not place a high priority
             on completing the CACFP audits. We determined that it takes CDE
             between 7 to 9 months to complete a review of a CPA-conducted
             audit.

             As stated, CDE also did not have an adequate tracking system to
             ensure that audits were completed and performed in a timely
             manner. We determined CDE was using four different systems to
             track the progress of a CACFP audit. However, none of the data
             bases were connected and none tracked the timeliness
             requirements. Clear and concise reports were not generated to give
             management an understanding about the progress of each CACFP
             audit. Only one data base was used to track nonmonetary findings.
             However, this was only recently started in the Field Services Unit
             (Administrative Review) and no reports were ever sent to CDE
             management. The lack of an accurate tracking report directly
             impacted CDE’s ability to efficiently monitor the CACFP program.

             We were also unable to determine who was responsible for the
             CACFP program. Managers from different units were responsible for
             various steps within the audit process. However, each unit was run
             independently by a unit manager. Each unit had its own data base,
             and the units did not effectively communicate with each other.
             Under the current management structure, we were unable to
             determine if one individual coordinated or administered the entire
             CACFP program. However, we did determine that the administrator
             of the department did not receive any reports or documentation on
             the progress of the CACFP audits, as outlined in OMB Circular
             A-133.




USDA/OIG-A/27601-9-SF                                                     Page 10
  RECOMMENDATION NO. 1a

             Instruct CDE to arrange for the performance of the 189 required
             program-specific CACFP audits that have not yet been completed.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation. The response stated that
             FNS received an audit plan from the CDE which provided for the
             completion of the required 189 program-specific CACFP audits.
             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             complete the required 189 program-specific CACFP audits.

  RECOMMENDATION NO. 1b

             Instruct CDE to establish and implement an adequate tracking
             system to confirm that it is meeting its audit requirements. The
             tracking system should measure the time requirements as required
             by OMB Circular A-133, track the audit process from beginning to
             end, and create clear and concise reports for CDE management to
             allow them to monitor the progress of the CACFP audits and the
             resolution of audit findings.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation. The response stated that
             FNS has requested implementation of a management accountability
             process by CDE which will incorporate this recommendation.




USDA/OIG-A/27601-9-SF                                                        Page 11
             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             establish and implement an adequate tracking system.


  RECOMMENDATION NO. 1c

             Instruct CDE to establish and implement a clear line of authority to
             ensure CACFP audits are completed timely and there is
             accountability for their completion.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             establish and implement a clear line of authority to ensure CACFP
             audits are completed timely and there is accountability for their
             completion.




USDA/OIG-A/27601-9-SF                                                        Page 12
 II. DEFICIENCIES IN THE AUDIT PROCESS AFFECTED THE
     QUALITY OF AUDITS



                    For those audits that CDE had completed, including CPA audits
                    performed under contract, deficiencies in CDE’s audit and desk
                    review processes affected the performance and quality of the work.
                    We found problems in policy and supervision that resulted in
                    substandard audit work, deficient oversight of CPA’s, and inadequate
                    followup of sponsor deficiencies. We noted several cases in which
                    CDE personnel had found evidence of questionable sponsor
                    activities but did not pursue the implications of the evidence or follow
                    through to correct the deficiency.

                    Program regulations state that, "Each State agency shall provide
                    sufficient consultative, technical and managerial personnel to
                    administer the Program...and monitor performance to facilitate
                    expansion and effective operation of the Program."6 Regulations
                    further state that the State agency shall review sponsor claims
                    annually to ensure that all participating child care centers and homes
                    are complying with program requirements.7

                                      The CACFP audits conducted by CDE
       FINDING NO. 2                  were substandard. The audit work
                                      contained significant departures from
                                      Government auditing standards (GAS)
  CDE AUDITS DID NOT MEET             in staffing qualifications, workpaper
   GOVERNMENT AUDITING                preparation, the audit program, audit
        STANDARDS                     methodology, audit reporting, and
                                      supervision, including quality control
                                      reviews.      As a result of the
          substandard work, there was no assurance CACFP audits were free
          of material misstatements.




   6
       7 CFR 226.6(a), dated January 1, 1995.
   7
       7 CFR 226.6(d)(1), dated January 1, 1995.



USDA/OIG-A/27601-9-SF                                                             Page 13
                    Six principal sources establish audit requirements for State and local
                    governments that receive USDA assistance:

                            The Single Audit Act of 1984.
                            OMB Circular A-128.
                            Government Auditing Standards.
                            Generally Accepted Auditing Standards.
                            AICPA Industry Audit and Accounting Guide, Audits of State
                            and Local Governmental Units.
                            Compliance Supplements for Single Audits of State and Local
                            Governments issued by OMB in April 1985, and any
                            subsequent revisions.8

                    All of the requirements must be met by a recipient before an audit
                    can be accepted as a Federal audit.9

                    We judgmentally selected five CACFP audits completed by CDE.
                    We selected sponsors who received high dollar reimbursements for
                    meal claims or who engaged in practices we found questionable.
                    These sponsors were CF Services, Friends Educational Child Care
                    Services, Crossroads Child Care Services, Monterey Bay Agency,
                    and Aladdin Child Care Services. We reviewed the audit reports,
                    supporting workpapers, and audit closure files for each of the audits
                    selected.

                    The CACFP audits contained significant departures from GAS in the
                    areas of: audit program, audit workpapers, audit methodology, audit
                    report, quality control reviews, and staff qualifications. A detailed
                    breakdown of all the deficiencies in each of these audits is located
                    in exhibit B.

                    Audit Program

                    The CDE audit program (i.e., audit procedures to be followed when
                    conducting an audit) should be designed to detect sponsor
                    noncompliance. "When laws, regulations, and other compliance
                    areas are significant to audit objectives, auditors should design the


   8
       7 CFR 3015.70(a), dated January 14, 1986.
   9
       7 CFR 3015.70(b), dated January 14, 1986.



USDA/OIG-A/27601-9-SF                                                            Page 14
                     audit to provide reasonable assurance about compliance with
                     them."10 The CDE audit program was not program-specific and
                     was not useful in detecting sponsor abuse.

                     The CDE audit program used for conducting the CACFP audits was
                     used for multiple CDE administered programs. Each of these CDE
                     administered programs had different regulations and compliance
                     requirements. In all five of the audits we reviewed, we found audit
                     steps that were incomplete, skipped by the auditor, or marked as
                     nonapplicable without explanation.

                     Also, some critical audit steps were not included in the audit
                     program. For example, the audit program did not include procedures
                     for assessing the audit risk, a required audit step.11 In another
                     example, auditors did not verify whether the sponsors kept advance
                     funds in an interest-bearing account, since this was not an audit
                     step. CDE auditors said they were not aware of this compliance
                     requirement and agreed that the audit program needed to be
                     strengthened and program-specific to the CACFP.12

                     Government Auditing Standards also require that auditors must
                     coordinate their work with other auditors and reviewers. The
                     standards state that "auditors should determine if other auditors have
                     previously done, or are doing audits of the program or the entity that
                     operates it.... [P]erformance audits or financial audits may be useful
                     sources of information for planning and performing the audit."13
                     Additionally, "auditors face similar considerations when relying on the
                     work of nonauditors."14




    10
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.26.
    11
         Generally Accepted Auditing Standards, Section 8.12, dated 1990.
    12
         OMB Circular A-133, Compliance Supplement, Cash Management section, dated October 1991.
    13
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.14.
    14
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.16.



USDA/OIG-A/27601-9-SF                                                                     Page 15
                      The CACFP audit program developed by CDE required the auditor
                      to review and place the most current administrative review report in
                      the audit workpapers. Auditors claimed they reviewed the last
                      administrative review report, but these reports were not always
                      placed in the audit workpapers. Only two of the five CACFP audit
                      reports selected for review had the most current administrative
                      review report in the workpapers. One audit had the administrative
                      review for a different sponsor in the workpapers.

                      Coordination and communication between the CACFP units prior to
                      performing a sponsor audit would enable auditors to focus efforts on
                      sponsor problem areas. For example, an administrative review
                      finding for a sponsor indicated the sponsor was paying its employees
                      2 to 3 weeks in advance of hours worked, which was unallowable.15
                       According to the sponsor, this practice started in 1993. However,
                      the audit of this sponsor indicated the sponsor was estimating future
                      expenses, but did not elaborate. The supporting workpaper only
                      stated the sponsor estimated expenses for sick leave, vacation, and
                      training. There was no indication the auditor was aware employees
                      were being paid in advance.

                      Audit Workpapers

                      We found that CDE auditors’ workpapers did not adequately support
                      the auditors’ analyses and conclusions. Also, the study and
                      evaluation of the internal control system for each of the audits we
                      reviewed was seriously limited. As a result, we question the support
                      and accuracy of the conclusions in the audit reports we reviewed.

                      Conclusions were not adequately supported. According to GAS,
                      "Working papers should contain sufficient information to enable an
                      experienced auditor having no previous connection with the audit to
                      ascertain from them the evidence that supports the auditors’
                      significant conclusions and judgments."16




    15
         OMB Circular A-122 6 (l), dated June 27, 1980.
    16
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.46.



USDA/OIG-A/27601-9-SF                                                                     Page 16
                     The audit workpapers did not adequately document the audit work
                     for any of the audits that we reviewed. The workpapers did not
                     adequately document how evidence was gathered and how the
                     analytical and substantive procedures were performed.

                     For example, the auditors told us they performed a comparative
                     analysis of the sponsor’s records to the State-generated records to
                     determine discrepancies in the sponsor’s records. However, this
                     analysis was not documented in the workpapers. In addition, the
                     determination of allowed and disallowed administrative expenses was
                     not always documented.

                     The auditor should document the sampling selection, methodology,
                     and procedures performed.17 Most of the workpapers did not
                     contain the sample selection and criteria, testing results, or the
                     effects of noncompliance. We were unable to determine the
                     population of the universe, the sample size, the sampling technique
                     used, and the results of tests performed. A description of the
                     sample procedures and the auditor’s evaluation of the sample results
                     were necessary to understand the auditor’s conclusions.

                     The workpapers also did not provide a discussion of material
                     noncompliance. "In reporting significant instances of noncompliance,
                     auditors should place their findings in perspective ... a basis for
                     judging the prevalence and consequences of noncompliance."18 In
                     the Aladdin, CF Services, and Crossroads audits, the audit reports
                     stated material noncompliance, but the reports did not discuss the
                     material noncompliance. In addition, the workpapers did not disclose
                     the full nature and extent of the noncompliance or their effects.

                     Evaluation of the internal control system was limited. OMB Circular
                     A-128 "requires that the independent auditor determine and report on
                     whether the organization has internal control systems ... In order to
                     provide this assurance the auditor must make a study and evaluation
                     of internal control systems ... The study and evaluation must be




    17
         Generally Accepted Auditing Standards, Section 9.29, dated 1990.
    18
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 7.28.



USDA/OIG-A/27601-9-SF                                                                     Page 17
                     made whether or not the auditor intends to place reliance on such
                     system."19

                     The internal control questionnaire was the only support for the study
                     and evaluation of the internal control system. The questionnaire was
                     also used to determine the nature, extent, and timing of the
                     substantive testing. However, the questionnaire was limited and did
                     not disclose internal control risks and reportable conditions.

                     The internal control questionnaire had several deficiencies. It was
                     poorly worded and ambiguous and consisted mostly of "yes/no"
                     responses without any narrative or discussion. The questionnaire
                     consisted of inquiries that were never substantiated by testing. The
                     auditors did not document an adequate understanding of the
                     sponsor’s internal control system to support the internal control
                     report, and no test of controls was performed.

                     Audit Methodology

                     For the audits that we reviewed, the auditors did not determine audit
                     risk or define materiality so as to expand the audit scope when
                     necessary.

                     According to GAS, "In planning tests of compliance with significant
                     laws and regulations, auditors assess the risk that illegal acts could
                     occur ... [and consider] whether the entity has controls that are
                     effective in preventing or detecting illegal acts."20      Also, "The
                     auditors should consider materiality, among other matters, in
                     determining the nature, timing, and extent of auditing procedures and
                     in evaluating the results of those procedures."21




    19
         OMB Circular A-128 (paragraph 8), dated July, 1985.
    20
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.31.
    21
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 4.6.



USDA/OIG-A/27601-9-SF                                                                     Page 18
                     CDE auditors did not perform a risk analysis, which is a required
                     element of an audit.22 The absence of an audit risk assessment
                     leaves the audit susceptible to the possibility that illegal acts may
                     have occurred without being detected.

                     We also found that the workpapers for the audits we reviewed did
                     not define materiality. According to the CACFP audit manager,
                     materiality was determined by the dollar impact based on the total
                     funding.    However, we found no basis or evidence of this
                     determination of materiality in the workpapers. The audit manager
                     also stated that auditors would not expand the scope of testing until
                     they exceeded a 10-percent error rate or in some cases a 20-percent
                     error rate. GAS suggests that auditors set lower materiality levels for
                     entities that receive government assistance because of the public
                     accountability.23

                     CDE sample criteria procedures state that auditors are to use
                     professional judgment to expand upon the initial sample size. We
                     found that CDE auditors did not expand their scope for additional
                     testing, even when problems such as missing records were
                     discovered. In addition, the auditors did not document or justify their
                     reasons for not performing additional testing to determine their effect
                     on the audit results as required.24 CDE auditors expanded testing
                     for only one audit step of one audit (Crossroads), and that was
                     occasioned merely by a math error.

                     The Aladdin audit demonstrates that materiality was not addressed
                     and that audit scope was not duly expanded. Auditors encountered
                     many problems in obtaining records from Aladdin. The auditors
                     obtained records for only 9 of 36 months and, in order to complete
                     the audit work, allowed the sponsor to recreate some of the missing
                     records. In addition, the auditors found that 25 of 75 centers did not
                     comply with CACFP program requirements. Nevertheless, the
                     sponsor received a qualified opinion in the audit report. We believe
                     the sponsor should have been terminated if these problems could

    22
         Generally Accepted Auditing Standards, Section 8.12, dated 1990.
    23
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 4.9.
    24
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.32.



USDA/OIG-A/27601-9-SF                                                                     Page 19
                     not be corrected. Regulations state that the State agency shall
                     terminate the program agreement with any institution which it
                     determines to be seriously deficient, which includes failure to
                     maintain adequate records. However, the State agency shall afford
                     an institution every reasonable opportunity to correct problems
                     before terminating the institution for being seriously deficient.25

                     In Aladdin, only 1 of 36 months was tested for the 5-day payment
                     disbursement requirement even though one center had already
                     informed CDE in writing that reimbursement checks were not
                     received. Auditors also discovered that Aladdin had numerous
                     bounced checks as a result of insufficient funds, but they did not
                     pursue the matter because they claimed Aladdin presented a letter
                     from the bank stating it was a bank error. The CACFP audit
                     manager said it was the auditor’s judgment that there was no need
                     for additional testing. After CDE’s audit, Aladdin went out of
                     business as a CACFP sponsor while owing its day care centers
                     hundreds of thousands of dollars in food reimbursements.

                     Audit Report

                     The purpose of the audit report is to communicate the results of the
                     audit in a way that is fair and not misleading.26 The CDE audit
                     reports were misleading because reportable conditions were not
                     adequately disclosed, the "going-concern" issue was never
                     addressed, and audit workpapers did not fully support the audit
                     opinion.

                     Conditions were not adequately disclosed. Government auditors are
                     required to report any reportable conditions found in their study and
                     evaluation of the internal control system. If the auditor determines
                     that the findings are not reportable, he or she should still
                     communicate them in writing to the auditee.27




    25
         7 CFR 226.6 (c), dated January 1, 1995.
    26
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 7.58.
    27
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Sections 5.26 and 5.28.



USDA/OIG-A/27601-9-SF                                                                     Page 20
                    In four out of the five audits, the internal control report portion of the
                    audit report identified material weaknesses in the internal control
                    structure. However, the auditors did not document the weaknesses
                    in the workpapers nor did the audit report state the nature and extent
                    of the weaknesses. In addition, no test of controls was documented.
                    As a result, the report did not address the severity of the material
                    weaknesses in the sponsor’s internal control system.

                    The "going-concern" issue was never addressed. Auditors should
                    evaluate the "going-concern" issue when conditions or events are
                    discovered that raise substantial doubt concerning the entity’s
                    continued existence.28 CDE auditors never addressed this issue.
                    The auditors told us the going-concern issue was the responsibility
                    of the Audit Closure Unit and Program Unit. However, we
                    interviewed officials from those units, and none of the officials knew
                    of a potential going-concern problem because the issue was never
                    addressed in the audit report.

                    For example, CDE determined that Aladdin had unauthorized
                    expenditures of $111,857 for disallowed administrative costs, which
                    were to be paid back to the centers. The audit report also stated that
                    Aladdin owed the State $208,160 for overclaimed meals. This
                    finding was obtained from reviewing only 9 months of records. If
                    fieldwork had been expanded, in all probability it would have shown
                    that Aladdin’s liability was much larger, and its ability to reimburse
                    the centers and State even more questionable.

                    In another example of the going-concern issue, CF Services
                    maintained a negative cash advance fund balance because it used
                    these funds to pay administrative expenses in excess of earned
                    reimbursement. The CDE auditors determined that continued use of
                    the cash advance restricted the ability of the sponsor to repay CDE.

                    The auditor’s opinion was not supported by the workpapers or the
                    findings in the report. Opinions stated in the audit report about the
                    completeness and accuracy of the sponsor’s records must be fully
                    supported in the workpapers. "The strength of the auditors’
                    conclusions depends on the persuasiveness of the evidence



   28
        Generally Accepted Auditing Standards, Section 8.56, dated 1990.



USDA/OIG-A/27601-9-SF                                                               Page 21
                     supporting the findings and the convincingness of the logic used to
                     formulate the conclusions."29

                     In both the CF Services and Aladdin audits, the opinions did not
                     agree with the material findings reported. GAS requires auditors to
                     report significant constraints imposed on their audit by data limitation
                     or scope impairments.30 GAS also notes that "When significant
                     scope limitation are imposed by the client, the auditor generally
                     should express a disclaimer of opinion."31 In Aladdin, the audit
                     opinion was based on the available records, but most of the records
                     were unavailable and some of the records reviewed were recreated
                     by the sponsor. Therefore, a disclaimer of opinion should have been
                     issued.

                     According to the CACFP audit manager, if the sponsor had some
                     records to enable the auditor to derive a dollar figure and make an
                     adjustment, the auditors would render an unqualified or qualified
                     opinion. If the sponsor had very limited or no records, an adverse
                     opinion might be issued. However, the manager claimed the
                     qualified opinion was based on the auditor’s "professional judgment."

                     Quality Control Reviews

                     Internal quality control reviews (QCR) performed by CDE were
                     inadequate, and external quality control reviews of CDE’s QCR
                     system were never performed. Each audit organization should have
                     an appropriate internal quality control system in place and undergo
                     an external quality control review.32

                     Internal reviews were inadequate. CDE did not have formal written
                     procedures for conducting QCRs. The QCR procedures should
                     provide reasonable assurance that the CACFP audits met standards


    29
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 7.20.
    30
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 7.14.
    31
         Generally Accepted Auditing Standards, Section 11.30, dated 1990.
    32
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 3.31.



USDA/OIG-A/27601-9-SF                                                                     Page 22
                    and followed audit policies and procedures.33 Because of the
                    absence of written procedures, CDE’s QCRs focused on the
                    accuracy of the dollar amounts listed on the schedules of the audit
                    report. The QCRs did not review the quality or completeness of the
                    auditor’s work.

                    According to the CDE official responsible for QCRs, the primary
                    focus of the QCR was to review the amount of meals disallowed and
                    to determine that the auditor’s meal adjustments were correct. The
                    QCRs did not include a review of the entire audit report and the
                    supporting workpapers to ensure workpaper accuracy and
                    compliance with auditing standards. Only a limited workpaper review
                    was conducted and not all references were verified. Another official
                    stated that only a few references were ever verified.

                    In all five audits reviewed, references in the workpapers were
                    missing or incorrect, and none of the audit reports were referenced
                    to the workpapers. Even the auditor’s schedule of meal claim
                    adjustments (dollar reimbursements) were not referenced to the
                    supporting analysis in the workpapers. In addition, the workpapers
                    contained numerous mistakes and inaccurate data. Workpapers for
                    the audit of Friends Educational included the Field Services Report
                    for a different sponsor. An adequate internal quality control review
                    system should have detected these errors and discrepancies.

                    External quality control reviews were not performed. One CDE
                    official noted that CDE is in the process of establishing an external
                    quality control program with the California Association of State
                    Auditors, so that an independent third party can review the internal
                    quality control system. However, CDE has not scheduled the review
                    date.

                    "Organizations conducting audits in accordance with...[GAS]
                    standards should have an external quality control review at least
                    once every 3 years by an organization not affiliated with the
                    organization being reviewed. The external quality control review
                    should determine whether the organization’s internal quality control


    33
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 3.32.




USDA/OIG-A/27601-9-SF                                                                     Page 23
                    system is in place and operating effectively to provide reasonable
                    assurance that established policies and procedures and applicable
                    auditing standards are being followed."34

                    Staff Supervision

                    CDE staff auditors were not properly supervised. Their work was not
                    reviewed and their performance was not evaluated.

                    "Staff are to be properly supervised. Supervision involves directing
                    the efforts of auditors."35 One of the elements of supervision
                    includes reviewing the audit work performed.36
                    The CACFP audit manager claimed he performed a limited review of
                    the workpapers and the audit report. He stated that he would spot
                    check the workpapers and trace some audit steps, review the
                    reports’ content, and sign the audit report. However, we found no
                    documentation of a supervisory review and no evidence that staff
                    auditors’ performance was ever evaluated. An adequate supervisory
                    review should have detected and corrected the numerous errors
                    found in the workpapers and would have disclosed that additional
                    audit work and followup was necessary.

                    For example, audits performed by CDE for the 1991-1992, 1992-
                    1993, and 1993-1994 program years disclosed that Pacific
                    Enrichment Incorporated inflated administrative costs, submitted
                    inaccurate meal claims, and used cash advances improperly. These
                    findings were repeated annually and included in the audit reports.
                    We have referred this sponsor to OIG Investigations for potential
                    program fraud.

                    We believe that an adequate supervisory review would have
                    concluded that additional audit work and followup on corrective
                    action was necessary.       Since the auditor identified serious
                    deficiencies, the sponsor should have been put on notice that if the


    34
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 3.33.
    35
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Sections 6.22 and 6.23.
    36
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 6.23.



USDA/OIG-A/27601-9-SF                                                                     Page 24
                      deficiencies were not corrected, the sponsor would be terminated
                      from the program. However, this was never done.

                      The CACFP audit manager said that his expectations were high; he
                      expected quality work from his auditors. He added that he relied
                      heavily on the internal QCR’s to detect errors or discrepancies in the
                      audit reports and the supporting workpapers. However, inadequate
                      supervision of the audits, insufficient review of the workpapers, and
                      inadequate QCRs resulted in the issuance of substandard audit
                      reports.

                      Staff Qualifications

                      "Staff assigned to perform the audit should have knowledge of the
                      methods and techniques applicable to government auditing and the
                      education skills ... the auditors should be proficient in the appropriate
                      accounting principles and in government auditing standards."37

                      The qualifications for Associate Management Auditor require the
                      equivalent to graduation from college with a minimum of six
                      semester units of accounting38 and 1 year of experience in the
                      State civil service. By contrast, OIG auditors must have a bachelor’s
                      degree that includes or is supplemented by 24 semester hours in
                      accounting and/or auditing. We believe that a minimum requirement
                      of six semester units of accounting for an auditor position was not
                      enough accounting curriculum to enable an individual to perform the
                      job properly.

                      For example, State specifications state that an auditor should have
                      the ability to "analyze data and take corrective action."39 Our audit
                      revealed many instances where the auditors could not effectively
                      analyze the sponsor’s condition, determine the cause of findings, or
                      recommend corrective action to management. If CDE audits were
                      properly conducted with qualified audit staff, the sponsor abuse and
                      fraud we found would have been detected earlier.


    37
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 3.10(a) and (e)(1).
    38
         California State Personnel Board specification, dated September 6, 1978.
    39
         California State Personnel Board specification, dated September 6, 1978.



USDA/OIG-A/27601-9-SF                                                                     Page 25
             Also, the audit staff did not receive performance evaluations from
             management. Instead, management had the audit staff conduct self-
             evaluations. Management had no effective way to monitor and
             appraise staff to determine if they were adequately performing their
             duties. To ensure quality audit work is performed, an objective
             evaluation should be conducted.


  RECOMMENDATION NO. 2a

             Instruct CDE to develop and implement an audit program that is
             customized to CACFP requirements and includes coordination and
             communication between the CACFP units.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to develop
             and implement an audit program that is customized to CACFP
             requirements and includes coordination and communication between
             the CACFP units.


  RECOMMENDATION NO. 2b

             Instruct CDE to establish and implement a process for management
             to perform supervisory reviews of all audit reports and workpapers.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.




USDA/OIG-A/27601-9-SF                                                        Page 26
             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             establish and implement a process for management to perform
             supervisory review of all audit reports and workpapers.


  RECOMMENDATION NO. 2c

             Instruct CDE to establish and implement an evaluation system so
             management can evaluate an auditor’s performance.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             establish and implement an evaluation system so management can
             evaluate and auditor’s performance.


  RECOMMENDATION NO. 2d

             Instruct CDE to provide training in Government Auditing Standards
             to audit staff involved in CACFP audits.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.




USDA/OIG-A/27601-9-SF                                                        Page 27
             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to provide
             training in Government Auditing Standards to audit staff involved in
             CACFP audits.


  RECOMMENDATION NO. 2e

             Instruct CDE to establish and implement a formal internal quality
             control system and a written quality control review procedures
             manual for their own audits.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             establish and implement a formal internal quality control system and
             a written quality control review procedures manual for their own
             audits.


  RECOMMENDATION NO. 2f

             Instruct CDE to establish and implement a system for an external
             quality control review (peer review) to be performed to ensure that
             an internal quality control review system is in place and operating
             effectively, and that the applicable policy and procedures are being
             followed.




USDA/OIG-A/27601-9-SF                                                        Page 28
             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             establish and implement a system for an external quality control
             review (peer review) to be performed to ensure that an internal
             quality control review system is in place and operating effectively,
             and that the applicable policy and procedures are being followed.


  RECOMMENDATION NO. 2g

             Instruct CDE to increase staff accounting curriculum requirements for
             new hires to enable the staff to perform the audits properly.

             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to
             increase staff accounting curriculum requirements for new hires to
             enable the staff to perform the audits properly.




USDA/OIG-A/27601-9-SF                                                        Page 29
                                     CDE’s quality control system for CPA
       FINDING NO. 3                 performed audits for CDE was deficient.
                                     CDE does not have written procedures
                                     for conducting quality control reviews
     QUALITY CONTROL                 (QCRs) of these audits. As a result,
  SYSTEM OVER CPA AUDITS             there was no assurance that audit
      WAS DEFICIENT                  reports and the supporting workpapers
                                     were relatively free of material
                                     misstatements, and that audits
           performed were in accordance with Government auditing standards.

                     The internal quality control system established by the audit
                     organization should provide reasonable assurance that it (1) has
                     adopted and is following applicable auditing standards and (2) has
                     established and is following adequate audit policies and
                     procedures.40 In addition, all CACFP audits are to be performed in
                     accordance with GAS41 and the audit reports for each sponsor state
                     that the audit was conducted "in accordance with generally accepted
                     auditing standards and Government Auditing Standards (GAS)
                     issued by the Comptroller General of the United States (1994
                     Revision)."

                     Prior to 1998, CDE had never performed a QCR of CACFP
                     sole-source funding audits completed by CPA’s. The CPA audit
                     reports received only a "desk review." CDE desk reviews consisted
                     of an examination of the audit report to verify that the required
                     components were included. However, desk reviews did not examine
                     the supporting workpapers to ensure they met OMB Circular A-133
                     requirements and were conducted in accordance with GAS.

                     The External Audit Unit should have selected audit reports for a QCR
                     which would have provided a representative sample of the audits
                     completed by CPA’s. The QCR should have included reviews of the
                     audit reports, workpapers, and any other necessary documentation,
                     as well as interviews with the audit organizations staff. Additionally,




    40
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Section 3.32.
    41
         7 CFR 3015.70 (a), dated January 14, 1986.



USDA/OIG-A/27601-9-SF                                                                     Page 30
                    a written report should have been prepared by the External Audit
                    Unit communicating the results of the QCR.42

                    We judgmentally selected five CPA audits of CACFP sponsors based
                    either on the size of the sponsor meal claims that the CPA reviewed
                    or on concerns by either CDE or OIG. The purpose of our review
                    was to determine if the CPA audits were performed in accordance
                    with GAS and other applicable regulations.

                    We examined the workpapers of three of the CACFP audit reports
                    performed by CPA’s and determined the reports and corresponding
                    workpapers met standards. Prior to our review of the fourth CPA
                    selected, the CPA was referred to the California Department of
                    Consumer Affairs Division of Investigations by CDE for substandard
                    audit work. We took no further action.

                    For the fifth CPA selected, we determined the CPA did not meet
                    Government auditing standards. Specifically, the audit was not
                    designed to provide reasonable assurance of sponsor compliance
                    with laws and regulations, there was no documentation that the audit
                    steps were performed, and workpapers did not contain sufficient
                    information to support the auditor’s conclusions and judgments.
                    Therefore, we referred this CPA to the American Institute of Certified
                    Public Accountants Professional Ethics Division and the California
                    Department of Consumer Affairs Division of Investigations for
                    substandard audit work.

                    CDE’s desk reviews only tested the audit reports’ compliance with
                    reporting standards and OMB Circular A-133 presentation
                    requirements. These reviews did not ensure that CPA audits met
                    the applicable auditing standards and complied with program
                    requirements. To supplement this desk review process, QCR’s of
                    the CPA’s workpapers should be performed on a representative
                    sample of the CPA audits to ensure auditing standards and program
                    requirements are met.




    42
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Sections 3.34(d)-3.34(f).



USDA/OIG-A/27601-9-SF                                                                     Page 31
   RECOMMENDATION NO. 3
                                                 Instruct the CDE to perform quality
                     control reviews on a representative sample of CACFP audits
                     completed by certified public accountants.

                     FNS Response

                     In its written response to the official draft report, dated July 27, 1999,
                     FNS agreed with this recommendation.

                     OIG Position

                     To accept FNS’ management decision on this recommendation, we
                     will need to be advised of the date when the CDE expects to begin
                     performing quality control reviews on a representative sample of
                     CACFP audits completed by certified public accountants.

                                                        The CDE did not perform adequate
               FINDING NO. 4                            followup on findings in audits. There
                                                        were no formal procedures to ensure
                                                        that recommendations were acted on
        AUDIT FOLLOWUP WAS                              and that corrective action had been
            INADEQUATE                                  implemented. As a result, there was
                                                        no assurance that sponsors were
                                                        complying with CACFP laws and
                     regulations.

                     Regulations state, "Recipients must establish a system for...following
                     up on the results of subrecipients audits [to] assure timely and
                     appropriate resolution of audit findings and recommendations." 43
                     Further,    "Documentation of supervisory assistance activities
                     including reviews conducted, corrective actions prescribed, and
                     follow-up efforts, shall be maintained on file by the State agency."44

                     Government auditing standards note that "Auditors should follow-up
                     on significant findings and recommendations from previous audits


   43
        7 CFR 3015.77 (a)(4) and (a)(7), dated January 14, 1986.
   44
        7 CFR 226.6 (l), dated January 1, 1995.



USDA/OIG-A/27601-9-SF                                                                Page 32
                    that could affect the audit objectives. They should do this to
                    determine whether timely and appropriate corrective actions have
                    been taken by auditee officials. Much of the benefit from audit work
                    is not in the findings reported or the recommendations made, but in
                    their effective resolution. Auditee management is responsible for
                    resolving audit findings and recommendations, and having a process
                    to track their status can help it fulfill this responsibility."45 CDE
                    should ensure corrective action has been implemented by auditee
                    management.

                    CDE did not have formal written followup procedures to ensure that
                    corrective action had been implemented for audits. The Audit
                    Closure Unit received corrective action plans (CAP) from the
                    sponsors, and action was taken only on monetary findings. Once all
                    monetary action had been implemented, the file was closed.

                    We reviewed five CDE audit files and the corresponding audit
                    closure files to determine if any followup had been performed. None
                    of the audits we reviewed documented that followup was performed
                    to ensure that corrective action was implemented. According to an
                    audit closure analyst, the auditor is to complete followup with the
                    agency.

                    For one of the audits, the sponsor submitted a CAP that stated the
                    disallowed procedures were still uncorrected, pending additional
                    information. The auditor who performed this audit stated he
                    telephoned the sponsor to answer her questions, but all
                    communication with her was verbal. There was never any written
                    communication, nor did the sponsor submit a revised CAP.

                    Furthermore, the audit closure analyst for this sponsor gave a copy
                    of the CAP to the auditor, who inadvertently placed the file in the
                    closed file cabinet instead of the accounts receivable file cabinet.
                    Thus, the file was closed without any documentation that the total
                    overpayment had been collected. We performed additional audit
                    procedures and confirmed that the overpayment had been paid.




    45
       Government Auditing Standards, Issued by the Comptroller General of the United States, 1994
Revision, Sections 6.12-6.13.



USDA/OIG-A/27601-9-SF                                                                     Page 33
             During our review of CDE workpapers we also found that potential
             material findings were not brought forward to the audit report and no
             additional audit work was performed. We also found no evidence
             that the CAP for these sponsors was ever implemented.

             Additionally, one audit report stated that the prior audit’s
             recommendations had been implemented. However, during our
             review we noted that some of the same findings were repeated in
             the current audit report. The auditor acknowledged that it was an
             error to report that the recommendations had been implemented.
             There was no evidence that action was taken by CDE on repeat
             findings.

             Based on our observations and inquiries, we determined an
             examination of the prior administrative review and/or audit report was
             the only followup performed by CDE. However, this was rarely
             documented in the workpapers. Although, administrative reviewers
             may have examined the prior review performed, by their own
             admission they did not meet with audit staff, review audit reports, or
             review audit workpapers before they conducted the next
             administrative review. Conversely, auditors did not always examine
             the latest administrative review or audit report.

             CDE officials stated that as of February 1998, they have established
             clear and comprehensive procedures for staff to take corrective
             action and follow up on conducted reviews. They also said they
             have established program policy committees that regularly meet to
             ensure proper followup, and they have instituted new monitoring
             procedures to ensure the proper implementation of corrective action.
             However, we have not received any documentation to support that
             the actions and procedures have been implemented.


   RECOMMENDATION NO. 4

             Instruct the CDE to appoint a responsible audit official to certify
             corrective action has been implemented for required program-specific
             CACFP audits.




USDA/OIG-A/27601-9-SF                                                     Page 34
             FNS Response

             In its written response to the official draft report, dated July 27, 1999,
             FNS agreed with this recommendation.

             OIG Position

             To accept FNS’ management decision on this recommendation, we
             will need to be advised of the date when the CDE expects to appoint
             a responsible audit official to certify corrective action has been
             implemented for required program-specific CACFP audits.




USDA/OIG-A/27601-9-SF                                                        Page 35
EXHIBIT A -              LOCATIONS VISITED

                      ORGANIZATION/ENTITY                       LOCATION

FNS Western Regional Office                          San Francisco, California



California Department of Education (CDE)             Sacramento, California

Child and Nutrition and Food Distribution Division

  External Audits Unit

  Administrative Services Unit

  Field Services Unit

  Child Care Food Program Unit

  Adult Day Care Food and Special Projects Unit

Accounting Office

Information Systems



California Bureau of State Audits                    Sacramento, California



Certified Public Accountants

For Pacific Enrichment Incorporated and FRAMAX       Modesto, California

For Community Business Improvement Association       Beverly Hills, California

For Children’s Spectrum                              Los Angeles, California




                                                                Exhibit A - Page 1 of 1


USDA/OIG-A/27601-9-SF                                                         Page 36
EXHIBIT B -              CDE AUDIT DEFICIENCIES


                                                        Friends                      Aladdin
                                                      Educational Crossroad Monterey Child
NO.          DEFICIENCIES                       CF     Child Care   s Child   Bay     Care
                                              Services Services      Care    Agency Services
                                                                   Services

      AUDIT PROGRAM
 1    Did not verify retainment of advance
      funds in an interest bearing account.     X                              X
 2    Audit program not specific to CACFP       X         X          X         X          X
      requirements.
 3    Steps skipped, incorrect referencing      X         X          X         X          X
      and audit procedures not followed.
      AUDIT WORKPAPERS
 4    Limited documentation of sample           X         X          X         X          X
      selection.
 5    Limited documentation of internal         X         X          X         X          X
      control structure.
 6    No discussion of the internal control     X         X          X                    X
      weaknesses.
 7    Inadequate internal control               X         X          X         X          X
      questionnaire.
 8    Schedules were not adequately                       X                               X
      cross-referenced.
 9    Did not review prior year findings.                 X                               X
 10 Inadequate documentation of results         X                    X
    of cash advance requirement.
 11 Workpapers did not stand alone.             X         X          X         X          X
 12 Lack of explanation of symbols and                               X         X
    markings.
 13 Did not disclose the effect of                                                        X
    disallowed costs.
 14 Did not document review of                  X                    X         X          X
    personnel records.




                                                                          Exhibit B - Page 1 of 3


USDA/OIG-A/27601-9-SF                                                                 Page 37
EXHIBIT B -              CDE AUDIT DEFICIENCIES


                                                          Friends                      Aladdin
                                                        Educational Crossroad Monterey Child
NO.          DEFICIENCIES                         CF     Child Care   s Child   Bay     Care
                                                Services Services      Care    Agency Services
                                                                     Services

 15 Most recent administrative review                       X          X         X
    report not included.
      AUDIT METHODOLOGY
 16 Risk analysis was not performed.              X         X          X         X          X
 17 Did not expand testing when                                                             X
    circumstances dictated.
 18 Materiality not addressed.                    X         X          X         X          X
 19 Did not verify advance funds were             X                    X
    issued in a timely manner.
 20 Did not sufficiently verify timeliness of     X         X                               X
    payments to providers.
 21 Prior year findings not corrected.                                 X
 22 Did not report questionable                                                             X
    expenses.
 23 Did not verify budget transfer limits.                             X         X          X
 24 Meal cash advance used to pay for             X
    administrative expenses.
      AUDIT REPORTS
 25 Material noncompliance not                    X                    X                    X
    emphasized or explained in report.
 26 Opinion not supported by W/P’s.               X                                         X
 27 Going-concern issue never                     X                                         X
    addressed.
 28 Reportable conditions on internal             X         X          X                    X
    control structure not in report.
 29 Did not disclose extent of problems.                                                    X



                                                                            Exhibit B - Page 2 of 3


USDA/OIG-A/27601-9-SF                                                                   Page 38
EXHIBIT B -             CDE AUDIT DEFICIENCIES


                                                        Friends                      Aladdin
                                                      Educational Crossroad Monterey Child
NO.         DEFICIENCIES                        CF     Child Care   s Child   Bay     Care
                                              Services Services      Care    Agency Services
                                                                   Services

      QUALITY CONTROL REVIEWS
 30 Errors related to lack of proof-reading     X         X          X         X          X
    and accuracy of data.
 31 Included incorrect administrative                     X
    review report.
 32 Lack of documentation indicating            X         X          X         X          X
    managerial review.
 33 Lack of documentation to show               X         X          X         X          X
    internal QCR was conducted.
 34 No documentation that external QCR          X         X          X         X          X
    was conducted.
      STAFF QUALIFICATIONS
 35 Errors related to lack of training or       X         X          X         X          X
    qualifications.
 36 Appearance of lack of independence.                                                   X
      TOTALS                                    24       20         23        18         28




                                                                          Exhibit B - Page 3 of 3


USDA/OIG-A/27601-9-SF                                                                 Page 39
EXHIBIT C -     FOOD AND NUTRITION SERVICE’S WRITTEN
                RESPONSE TO THE DRAFT REPORT




                                             Exhibit C - Page 1 of 4


USDA/OIG-A/27601-9-SF                                    Page 40
EXHIBIT C -     FOOD AND NUTRITION SERVICE’S WRITTEN
                RESPONSE TO THE DRAFT REPORT




                                             Exhibit C - Page 2 of 4


USDA/OIG-A/27601-9-SF                                    Page 41
EXHIBIT C -     FOOD AND NUTRITION SERVICE’S WRITTEN
                RESPONSE TO THE DRAFT REPORT




                                             Exhibit C - Page 3 of 4


USDA/OIG-A/27601-9-SF                                    Page 42
EXHIBIT C -     FOOD AND NUTRITION SERVICE’S WRITTEN
                RESPONSE TO THE DRAFT REPORT




                                             Exhibit C - Page 4 of 4


USDA/OIG-A/27601-9-SF                                    Page 43
